        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report
The Department of Energy's
Weatherization Assistance Program
under the American Recovery and
Reinvestment Act for the City of
Phoenix – Agreed-Upon Procedures




OAS-RA-11-03                     November 2010
                                 Department of Energy
                                   Washington, DC 20585

                                      November 30, 2010


MEMORANDUM FOR THE DEPUTY ASSISTANT SECRETARY FOR ENERGY
               EFFICIENCY AND RENEWABLE ENERGY



FROM:                    Rickey R. Hass
                         Deputy Inspector General
                            for Audit Services
                         Office of Inspector General

SUBJECT:                 INFORMATION: "The Department of Energy's Weatherization
                         Assistance Program under the American Recovery and Reinvestment
                         Act for the City of Phoenix – Agreed-Upon Procedures"
                         Audit Report No.: OAS-RA-11-03

INTRODUCTION AND OBJECTIVE

The attached report presents the results of an agreed-upon procedures review of the Department
of Energy's (Department) Weatherization Assistance Program in the City of Phoenix, Arizona,
under the American Recovery and Reinvestment Act of 2009 (Recovery Act). The Office of
Inspector General (OIG) engaged an independent certified public accounting firm, Lopez and
Company, to perform the agreed-upon procedures for Phoenix, a sub-recipient of the
Department's Recovery Act Weatherization funding for the State of Arizona.

The Recovery Act was enacted to promote economic prosperity through job creation and
encourage investment in the Nation's energy future. As part of the Recovery Act, the
Weatherization Assistance Program was implemented to reduce energy consumption for low-
income households through energy efficient upgrades. The State of Arizona received $57
million in Weatherization Assistance Recovery Act grant funding, of which $7.2 million was
allocated to the City of Phoenix. The Arizona Department of Commerce was responsible for
administering Weatherization grants, including sub-grants provided to the City of Phoenix. This
grant provided more than a fifteen-fold increase in funds available to Arizona for weatherization
over the amount authorized in Fiscal Year 2009.

OBSERVATIONS AND CONCLUSIONS

The review identified opportunities for the City of Phoenix to improve its administration of
Recovery Act funds made available by the Department's Weatherization Assistance Program. In
particular, the City of Phoenix had not always ensured that costs charged for the weatherization
of homes were reasonable. Specifically, Phoenix had not:
                                                2


       Procured contractor weatherization services through a competitive process as required by
       Federal regulations, nor had it performed cost analyses in the selection of contractors to
       ensure price competiveness;

       Obtained or reviewed supporting documentation for contractors' invoices totaling
       $275,375 for 30 homes/units to ensure that materials and labor costs incurred on projects
       were associated with allowable weatherization services and materials; and,

       Ensured that employees charging payroll costs to the Weatherization Program Recovery
       Act grants were actually providing such services to the Program. In fact, the City of
       Phoenix charged payroll costs to the Program totaling $73,082 for three full time
       employees even though payroll information to support such costs did not exist.

The City of Phoenix did not have written policies and/or procedures for ensuring cost
reasonableness and supportability. Additionally, the City's payroll system was not structured to
track employee's time incurred on projects. Payment for expenditures not appropriately
documented and accounted for can potentially reduce the number of homes of low-income
residents that can be weatherized. As a result of weaknesses in the City of Phoenix's
administration of Weatherization Assistance Program, we question $348,457 in costs incurred.

RECOMMENDATIONS

The attached agreed-upon procedures report makes recommendations to the State of Arizona and
the City of Phoenix to improve administration of the Department of Energy Weatherization
Assistance Program grant.

As part of its responsibilities for managing the national Weatherization Program, we recommend
that the Acting Director, Weatherization Assistance and Intergovernmental Programs, Office of
Energy Efficiency and Renewable Energy ensure that appropriate action is taken by the State of
Arizona to improve the City of Phoenix's administration of Recovery Act Weatherization
Assistance Program funds. We also recommend that the Contracting Officer resolve identified
questioned costs.

MANAGEMENT COMMENTS

In discussions with the Office of Inspector General, Office of Energy Efficiency and Renewable
Energy management agreed to address the issues in this report as part of their ongoing
monitoring of the State of Arizona's Weatherization Assistance Program and to promptly resolve
all questioned costs identified.

To its credit, the Arizona Department of Commerce stated that it had engaged the City of
Phoenix in resolving questioned costs. For its part, the City of Phoenix reported that it had
implemented a new Recovery Act Weatherization program that used a competitive low bid
process to ensure cost reasonableness and full and open competition. Also, the City of Phoenix
stated that it currently requires additional documentation on equipment costs in both bid
proposals and invoices. The City of Phoenix said that it was engaged in finding an alternative
                                                3


method to more accurately support its personnel costs charged to Recovery Act funding.
However, the City of Phoenix also believed that its existing methodology for allocating
personnel costs to Recovery Act projects actually resulted in charging about $75,000 in
personnel costs less than would have resulted from a pro rata distribution of costs based on
production or on a direct time-card basis. Management comments from the Arizona Department
of Commerce and the City of Phoenix are included in the attached agreed-upon procedures
report.

AGREED UPON PROCEDURES

The agreed-upon-procedures were performed in accordance with attestation standards
established by the American Institute of Certified Public Accountants (AICPA) as well as those
additional standards contained in the Government Auditing Standards, issued by the Comptroller
General of the United States.

The OIG monitored the progress of the agreed-upon procedures performed and reviewed the
report and related documentation. Our review disclosed no instances where Lopez and
Company, in all material aspects, did not comply with the attestation requirements. Lopez and
Company is responsible for the attached report dated November 23, 2010, and the conclusions
expressed in the report.

The agreed-upon procedures included gathering an understanding of policies and procedures and
reviewing documentation from the City of Phoenix. They also included an analysis of inspection
results, records of corrective actions, and re-inspections of completed homes/units to ensure that
any failures were properly corrected. Finally, an analysis of associated cost data was performed
to test the appropriateness of payments.

Attachment

cc: Deputy Secretary
    Acting Under Secretary for Energy
    Chief of Staff
    Assistant Secretary for Energy Efficiency and Renewable Energy
                                          AGREED-UPON PROCEDURES


                                                                OF

                                Recovery Act Weatherization Assistance Program

                                                       City of Phoenix

                                                              ____

                                                    PERFORMED FOR

                                        U.S. DEPARTMENT OF ENERGY
                                       OFFICE OF INSPECTOR GENERAL



                                                          Prepared by

                                                Lopez and Company, LLP


                                     CONTRACT NUMBER: DE-IG0000017

                                        WORK ORDER NUMBER: 2010-02




3452 East Foothill Boulevard ▪ Suite 820 ▪ Pasadena ▪ California 91107
Phone: 626-583-1116 ▪ Fax: 626-577-8439 ▪ www.lopezllp.com
                                               Table of Contents



Independent Accountant's Report On Applying Agreed-Upon Procedures ................. 1

SECTION I. City of Phoenix's Weatherization Assistance Program ........................... 2

SECTION II. Agreed-Upon Procedures Performed....................................................... 3

SECTION III. Classification of Findings ........................................................................ 5

SECTION IV. Summary of Findings ............................................................................... 6

SECTION V. Schedule of Findings .................................................................................. 7

SECTION VI. City of Phoenix Response ....................................................................... 12

SECTION VII. Arizona Department of Commerce Response .................................... 14
 INDEPENDENT ACCOUNTANT'S REPORT ON APPLYING AGREED-UPON
                      PROCEDURES

To the Inspector General,
Department of Energy:

We have performed the procedures which have been agreed to by the U.S. Department of
Energy's (Department) Office of Inspector General (Inspector General) solely to assist
you in evaluating whether the City of Phoenix (the City), a sub recipient of the State of
Arizona, complied with relevant Federal requirements and program guidelines in
administering the Department's Weatherization Assistance Program (Weatherization
Program) funds provided by the American Recovery and Reinvestment Act (Recovery
Act) of 2009 for the period of July 1, 2009 to December 31, 2009.

City management is responsible for compliance with relevant Federal requirements and
program guidelines.

This agreed-upon procedures engagement was conducted in accordance with attestation
standards established by the American Institute of Certified Public Accountants and the
U.S. Government Accountability Office. The sufficiency of these procedures is solely
the responsibility of the Inspector General. Consequently, we make no representation
regarding the sufficiency of the procedures described below either for the purpose for
which this report has been requested or for any other purpose.

The agreed-upon procedures performed and findings developed based on these
procedures are presented on the following pages.

We were not engaged to and did not conduct an examination, the objective of which
would be the expression of an opinion on the City's compliance with relevant Federal
requirements and program guidelines in administering the Department's Weatherization
Assistance Program funds provided by the Recovery Act of 2009. Accordingly, we do
not express such an opinion. Had we performed additional procedures, other matters
might have come to our attention that would have been reported to you.

This report is intended solely for the information and use of the Inspector General, and is
not intended to be and should not be used by anyone other than the specified party.



/s/ Lopez and Company, LLP
November 23, 2010

3452 East Foothill Boulevard ▪ Suite 820 ▪ Pasadena ▪ California 91107
Phone: 626-583-1116 ▪ Fax: 626-577-8439 ▪ www.lopezllp.com
                                                         Page 1
        SECTION I. City of Phoenix's Weatherization Assistance Program


The City of Phoenix operates under a Council-Manager form of government as provided
by its Charter, which was adopted in 1913. Under this organizational structure, the
Mayor and Council appoint a city manager to act as the chief operating officer. The
Mayor and City Council set policy direction and the city manager implements those
policies. The Mayor is elected at-large, while Council members are elected by voters in
each of eight separate districts they represent. The Mayor and each Council member
have equal voting power.

Weatherization Assistance Program Goals and Funding

The Goal of the Weatherization Assistance Program (Weatherization Program) in
Arizona is to increase the energy efficiency of housing occupied by low-income persons
and households and reduce their total residential energy expenditures. Arizona's
Department of Commerce administers the Weatherization Program through sub-grants to
local agencies, including the City. Under the sub-grant with Arizona, the City's
Neighborhood Services Department is responsible for determining applicant eligibility,
weatherizing homes, and conducting home assessments and inspections. Arizona
allocated $7.2 million of its $57 million Recovery Act Weatherization Program funds to
the City, to be expended over three years. In accordance with Weatherization Program
criteria, the City provides weatherization services to families with income of less than
200 percent of the poverty level as defined by the U.S. Department of Health and Human
Services.




                                   Page 2                          Lopez and Company, LLP
                 SECTION II. Agreed-Upon Procedures Performed

1. We obtained an understanding of the City of Phoenix's Weatherization Program, its
   management and administration of risks and mitigating controls, through interviews
   with City officials, review of available information, policy and procedures
   documentation, and preliminary analysis of completed homes/units and associated
   cost data, in order to decide on an appropriate sample size and test focus.

2. Based on preliminary work performed in step 1, we judgmentally selected a sample of
   30 completed homes/units.

3. We reviewed the sampled applicants' files for documentation supporting the
   applicants' eligibility for weatherization services under the Program. If the home/unit
   had prior weatherization work performed, we determined whether the prior work was
   completed on or before September 30, 1994. Weatherization Program regulations
   prohibit additional weatherization work if performed after this date.

4. We reviewed the sampled files for inspection results, records of corrective actions,
   and re-inspections to ensure any failures noted were properly corrected. We also
   interviewed weatherization service recipients to confirm that weatherization work
   took place on their property and they were satisfied with the services.

5. We evaluated the selected completed home/units' savings to investment ratios (SIRs)
   based on reported costs to determine whether the SIRs were less than one. If so, we
   determined the reasons for the non-compliance.

6. For the sampled homes/units, we selected relevant detailed cost data to determine
   whether:

       a. Costs incurred were allowable;

       b. Weatherization measures/materials complied with 10 CFR 440.18(d) (1) and
          10 CFR 440, Appendix A, and that specifically stated unallowable items such
          as freezer-only units and/or sub-standard weatherization measures/materials
          were not used.

7. Using the City's vendor master list, employee master list and the Accounts Payable
   disbursement file for the period under review, we:

   a. Compared vendor names per the disbursement's database with those of the vendor
      master list to determine whether there were unauthorized and/or ghost vendors,
      and/or same vendor/similar name schemes (i.e. S.D. Baker, SD Baker, SDBaker);

   b. Compared vendor names and addresses with employee names and addresses to
      determine whether there were employees disguised as vendors; and,

                                   Page 3                           Lopez and Company, LLP
         SECTION II Agreed-Upon Procedures Performed (cont.)

   c. In lieu of applying data-mining algorithms, we reviewed vendor payment
      information to determine whether there were duplicate payments and split
      transaction payments (i.e. breaking one large amount invoice into two or more
      small amount invoices, and multiple payments for the same or similar invoice
      number from the same vendor using a similar name scheme).

8. We obtained a list of all monthly reimbursement requests and determined whether
   each request was adequately supported by detailed documentation, reconciled to
   appropriate summary ledgers, and reviewed and approved by appropriate
   management.

9. Since the City of Phoenix has no vehicles or equipment with a cost of over $5,000
   purchased with Recovery Act funds, we did not apply the agreed-upon procedures
   pertaining to purchase authorization, record keeping, title, custody, usage, and
   maintenance of Federally funded vehicles and equipment.

10. We obtained and reviewed a sample of thirty executed subcontract agreements
    between the City and its subcontractors for Recovery Act Weatherization Program
    work to determine whether the agreement was properly executed by both parties and
    whether the agreement provided for weekly certified payrolls with corresponding
    approved Davis-Bacon wage rates. For each subcontract selected, we tested a sample
    of two weekly-certified payrolls to determine whether the subcontractor was paying
    the prevailing wages according to the provisions of the subcontract agreement.

11. We obtained a master list of program identification or job codes used by the sub-
    recipient to separately record transactions under the Recovery Act weatherization
    program and transactions under other projects. We traced the identification or job
    code to the sample detailed cost data to determine whether the Weatherization
    Program Recovery Act project identification or code was actually used in separately
    recording and identifying weatherization transactions.

12. We selected one quarterly Recovery Act mandated performance progress report that
    contained the "Number of Jobs Created and Saved" information, reviewed relevant
    definitions and supporting calculation schedules to determine whether "Jobs Created
    and Saved" was consistently applied, and whether the number of "Jobs Created and
    Saved" was calculated accurately.




                                   Page 4                          Lopez and Company, LLP
                       SECTION III. Classification of Findings

The findings in this report are classified as follows:

Material Weakness

For purposes of this engagement, a material weakness is a significant deficiency, or
combination of significant deficiencies, that results in more than a remote likelihood that
a material misstatement of the subject matter will not be prevented or detected.

Significant Deficiency

A significant deficiency is a deficiency in internal control, or combination of deficiencies,
that adversely affects the City's ability to initiate, authorize, record, process, or report
data reliably in accordance with the applicable criteria or framework such that there is
more than a remote likelihood that a misstatement of the subject matter that is more than
inconsequential will not be prevented or detected. These are not considered material
weaknesses, as previously defined.




                                    Page 5                            Lopez and Company, LLP
                        SECTION IV. Summary of Findings

Area/Finding

Questioned Costs

      V.1  Questioned Costs for Weatherization Services Provided (Material
      Weakness)

      V.2      City of Phoenix Payroll Costs for Implementation of the Weatherization
               Program (Significant Deficiency)




                                   Page 6                         Lopez and Company, LLP
                          SECTION V. Schedule of Findings

Questioned Costs Findings

V.1    Questioned Costs for Weatherization Services Provided (Material Weakness)

Condition

Based on our review of 30 completed homes/units, we found that the City of Phoenix was
not ensuring that weatherization costs were either reasonable or supportable. More
specifically, the City of Phoenix had not, at the time of our review:

a) Complied with Federal regulations which require that procurements for
   weatherization efforts be conducted in a manner providing full and open competition
   and, therefore, could not ensure that costs were reasonable. The City provides
   weatherization of eligible homes/units by awarding projects to contractors that have
   been evaluated and determined to be qualified to provide these weatherization
   services. The City distributes the weatherization projects to the qualified contractors
   on a "next in line" basis with the overall cost of the project negotiated between the
   City's rehabilitation specialist and the contractor. However, there was no competitive
   bidding and/or cost analysis in the contractor evaluation and selection process to
   ensure that cost competitive contractors were selected and that costs charged were
   reasonable.

b) Obtained or reviewed documentation for contractors' invoices to ensure that materials
   and labor costs on projects were associated with allowable weatherization services
   and materials. Federal and State requirements state that to be allowable under Federal
   awards, costs must be adequately documented. Based on the agreement between the
   Arizona Department of Commerce and the City of Phoenix, the City is required to
   comply with Federal requirements. Without adequate detailed information to support
   the costs charged by the contractors, the City cannot determine whether the costs
   were for allowable materials since the contractor invoices did not include descriptions
   of materials used and items installed.

As a result of the lack of contractor competition or an evaluation of reasonableness and
insufficient documentation to support costs billed, we question the $275,375 associated
with the 30 homes/units in our sample.




                                   Page 7                           Lopez and Company, LLP
                        SECTION V Schedule of Findings (Cont.)



V.1      Questioned Costs for Weatherization Services Provided (Cont.)

Cause

We determined that the City of Phoenix did not have written policies and/or procedures
to address the issues of cost reasonableness and supportability. Management believed
that using the "next in line" process was sufficient to ensure cost reasonableness. More
specifically, it believed its rehabilitation specialists, whom it felt were knowledgeable
about costs, could negotiate fair prices on projects to ensure costs were reasonable. In
terms of supportability, management was not aware of the necessity of requiring the
contractors' invoices to include descriptions of materials used and items installed. This is
because these issues had not been identified in previous Weatherization Program reviews.
During the exit conference, management acknowledged the finding and its implication,
and stated that it would make improvements to address the finding. More importantly, as
a result of this audit finding, the City of Phoenix revamped its Weatherization Program
procurement methodologies. The work to be performed on individual homes/units is now
being bid and lowest responsible bidders are being awarded the work. Further, the City
of Phoenix has hired independent firms to conduct pre- and post- evaluations of
weatherization work to ensure that weatherization measures installed comply with
Federal Requirements for Savings to Investment Ratio.

Effect

The lack of an element of cost competition during the selection of contractors coupled
with the absence of written procedures requiring submission of detailed invoices on
projects resulted in an inability to evaluate costs to ensure that costs incurred were
reasonable and allowable. Further, the risk of fraud, waste and abuse is elevated in the
City of Phoenix's Weatherization Program.

Recommendations

1. We recommend that the Arizona Department of Commerce review the City of
   Phoenix's revised policies and procedures to ensure that the City:

      1.1. Evaluates and selects contractors based on competitive bidding; and,

      1.2. Obtains sufficient documentation of costs charged by contractors to allow the
           City to review and establish that costs charged are reasonable and allowable.

2. We also recommend that the Arizona Department of Commerce work with the City of
   Phoenix to address the costs questioned in this finding.




                                     Page 8                           Lopez and Company, LLP
                      SECTION V Schedule of Findings (Cont.)


City of Phoenix Response

The City of Phoenix concurred with the finding and recommendation V.1.1 and has
implemented a competitive low bid process to ensure cost reasonableness and full and
open competition.

V.1    Questioned Costs for Weatherization Services Provided (Cont.)

The City also concurred with the finding and recommendation V.1.2 and now requires
contractors to submit detailed documentation on all weatherization proposals to support
allowable equipment costs. See Section VI for the City's full response.

Arizona Department of Commerce Response

The Arizona Department of Commerce concurred with the findings and
recommendations put forth. See Section VII for the Arizona Department of Commerce's
full response.




                                   Page 9                          Lopez and Company, LLP
                          SECTION V. Schedule of Findings


Questioned Costs Findings (Cont.)

V.2   City of Phoenix Payroll Costs for Implementation of the Weatherization
Program (Significant Deficiency)

Condition

The City charged three full time employees to Weatherization Program Recovery Act
grants as direct costs even though payroll information to support such costs did not exist.
Further, these personnel provide support to other City programs that were not funded by
the Recovery Act. Federal regulations require that costs must be adequately supported
and documented in order to be allowable under Federal awards.

At the time the City applied for Weatherization Program Recovery Act funds, officials
determined that the additional weatherization efforts would necessitate hiring three
additional staff. There was no formal study or analysis performed to support the City's
estimate that three workers were necessary to support the Recovery Act Weatherization
Program. The City's grant manager stated that since the employees were hired to address
the support needs of the Weatherization Program, their full costs are charged to the
Weatherization Program Recovery Act funds. We determined, however, that these
employees provided support to other City programs and that other (non-Recovery Act
funded) City workers provided support to the Recovery Act funded Weatherization
Program. The City could not demonstrate actual staffing needs, nor could we determine
how much time was actually spent by City workers conducting Recovery Act
weatherization efforts.

Cause

The City's payroll system was not set up to track employees' time incurred on projects, or
on any other functional basis. Management used an undocumented cost estimate in
support of the three personnel charged to the Recovery Act funded Weatherization
Program. Management did not understand the Weatherization Program requirements for
tracking employees' time incurred on projects. Further, it did not initially recognize the
need for a formal study to support costs charged to Recovery Act funded Weatherization
Program for three personnel.

During the exit conference, management acknowledged the finding and did state that it
was in the process of preparing a formal study of program needs supporting its decision
to charge three staff to the Weatherization Program. According to the Department's
Weatherization Program staff, the City of Phoenix' Weatherization Program may only
account for hours of staff assigned to and performing on behalf of the Program. In
addition, the fiscal records should be adjusted to reflect the actual hours of the work
performed by these staff on behalf of the Program.




                                   Page 10                           Lopez and Company, LLP
                          SECTION V. Schedule of Findings


V.2   City of Phoenix Payroll Costs for Implementation of the Weatherization
Program (Cont.)

Effect

Without documentation of the level of effort provided by City employees to the Recovery
Act Weatherization Program, we question the $73,082 charged to the Weatherization
Program for the three employees at the time of our review.

Recommendations

We recommend that the Arizona Department of Commerce ensure that the City of
Phoenix:

     1. Prepares a formal analysis which clearly supports the amount charged for the
        City's weatherization personnel costs in terms of full-time staff equivalents for
        review and approval by the Arizona Department of Commerce.

City of Phoenix Response

The City of Phoenix concurred with this finding and recommendation. The City has
submitted a work force analysis indicating that the City incurred weatherization
personnel costs in excess of amounts charged to the weatherization grant and the analysis
appears adequate. The City is actively engaged in finding an alternative method to more
accurately support future weatherization personnel costs in cooperation with the Arizona
Department of Commerce. See Section VI for the City's full response.

Arizona Department of Commerce Response

The Arizona Department of Commerce concurred with the finding and recommendation
put forth. See Section VII for the Arizona Department of Commerce's full response.




                                  Page 11                           Lopez and Company, LLP
SECTION VI. City of Phoenix Response




         Page 12                       Lopez and Company, LLP
SECTION VI. City of Phoenix Response




         Page 13                       Lopez and Company, LLP
SECTION VII. Arizona Department of Commerce Response




                 Page 14                    Lopez and Company, LLP
SECTION VII. Arizona Department of Commerce Response




                 Page 15                    Lopez and Company, LLP
                                                          IG Report No. OAS-RA-11-03

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                         Date

Telephone                                    Organization

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
